            Office Of Inspector General




January 18, 2005

JOHN P. HARTNETT
PROGRAM MANAGER, PACIFIC AREA
 VEHICLE MAINTENANCE FACILITIES

SUBJECT:          Audit Report – Accountability at the San Francisco Vehicle Maintenance
                  Facility (Report Number FT-AR-05-008)

This report presents issues concerning controls over vehicles, vehicle parts, and bulk
fuel and oil inventories at the San Francisco Vehicle Maintenance Facility (VMF). While
the amounts described in this report are not material to the financial statements, we
wanted to highlight control issues that could lead to more significant control weaknesses
if not corrected timely. This issue was identified during our self-initiated audit of the
fiscal year (FY) 2004 Postal Service Financial Statements – San Mateo Information
Technology and Accounting Service Center (IT/ASC) (Project Number 04XD009FT002).

                                               Background
Vehicle maintenance facilities are accountable for vehicles, vehicle parts, and
inventories of bulk fuel and oil. Specifically, the San Francisco VMF and its auxiliary
garage in San Mateo, California, accounted for approximately 2,300 vehicles. In
addition, the San Francisco VMF held both owned and consigned parts used in the
repair of vehicles. The facility also used three bulk fuel storage tanks, one holding
diesel fuel, and two containing bulk oil. Bulk oil was also held in drums at its auxiliary
garage. Fuel usage was recorded by meters on the fuel pumps, the TRAK system, and
the Veeder-Root system.1 Oil usage was recorded using the Veeder-Root system at
the San Francisco VMF and manually at the auxiliary garage.




1
  The TRAK system is a commercial off-the-shelf software package that accumulates daily fueling transactions and
maintains vehicle, site, tank, and (fuel) hose data, manufactured by Trak Engineering, Inc. The Veeder-Root system
is a fuel control system used to measure the fuel and oil tank volumes.




    1735 N Lynn St
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Accountability at the San Francisco                                                         FT-AR-05-008
 Vehicle Maintenance Facility



Personnel at the VMF use the local Vehicle Management Accounting System (VMAS)
as a reporting and management control system for the vehicle fleet. It provides fleet
managers information to improve management of their inventories, vehicle utilization,
and maintenance and repairs of vehicles. Postal Service policies and procedures
require facility personnel perform regular inventories of its vehicle, vehicle parts, and
bulk fuel and oil inventories to ensure purchases are entered correctly, quantities on
hand are recorded correctly, and discrepancies are investigated and corrected.

                            Objective, Scope, and Methodology
The objective of this portion of our audit was to determine whether VMFs were
properly accounting for vehicle parts, bulk fuel and oil inventories, and vehicles. The
San Francisco VMF was one of four VMFs2 judgmentally selected to test existence,
ownership, and valuation of vehicles, vehicle parts, and bulk fuel and oil as part of the
annual financial statements audit of the San Mateo IT/ASC. To accomplish our
objective, we reviewed and evaluated the methods used by the San Francisco VMF to
account for vehicle parts, bulk fuel and oil, and vehicles. We reviewed Postal Service
policies and guidance and evaluated whether the methods used conformed with those
policies and guidance. We also verified the existence of vehicles and vehicle parts.

This audit was conducted from June 2004 through January 2005 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
observations and conclusions with appropriate management officials and included their
comments, where appropriate. We relied on computer-generated data from the national
VMAS, maintained by the San Mateo IT/ASC, to validate vehicle existence, and the
local VMAS, maintained by the San Francisco VMF, to validate parts inventory.

                                        Prior Audit Coverage
In our FY 2000 audit,3 we found 17 of 21 main VMFs and auxiliary garages were not
properly accounting for fuel inventory. Postal Service management issued a
memorandum that addressed the monitoring, reporting, and reconciliation requirements
for bulk fuel inventories. In FY 2001,4 we validated that the controls over accounting for
fuel inventories were in place and functioning at the locations visited.



2
  During FY 2004, we visited the VMFs located in Alexandria, Virginia; St. Louis (Weathers auxiliary), Missouri;
St. Paul, Minnesota; and San Francisco, California.
3
  Fiscal Year 2000 Postal Service Financial Statement Audit - San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-01-008, dated March 6, 2001).
4
  Fiscal Year 2001 Postal Service Financial Statement Audit - San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-02-009, dated February 12, 2002).




                                                         2
Accountability at the San Francisco                                                      FT-AR-05-008
 Vehicle Maintenance Facility


In FY 2002,5 the Postal Service did not independently account for or track consigned
inventories of vehicle parts (consigned parts). In response, Postal Service management
issued Vehicle Maintenance Bulletin V-04-03,6 which required the VMFs to account for
consigned parts. Our follow-up tests confirmed the VMFs accounted for consigned
parts. In addition, the San Bernardino, California, VMF did not properly account for bulk
fuel inventories.7 We recommended that San Bernardino VMF personnel regularly
reconcile bulk fuel inventories. Our follow-up tests verified bulk fuel inventories were
regularly reconciled at this facility.

                                                  Results

Accounting for Parts Inventories

The San Francisco VMF did not maintain accountability over vehicle parts inventories.
During FY 2004, the San Francisco VMF purchased approximately $1.2 million in parts
for both itself and the auxiliary VMF in San Mateo, California. During our unannounced
physical inventory of 15 different types of vehicle parts valued at $5,253, 5 types valued
at $657 could not be reconciled to the local VMAS. This occurred because the San
Francisco VMF did not comply with requirements to account for vehicle parts inventory.8
VMF personnel generally conducted periodic physical inventories. However, they did
not always research and explain vehicle inventory part discrepancies or adjust VMAS as
required. San Francisco VMF personnel stated parts were sometimes taken out of the
stockroom without recording them on work orders or work orders could get lost. VMF
personnel also noted that differences were resolved by adding the missing parts to
outstanding work orders or creating work orders to account for the missing parts. As a
result, inaccurate inventory records diminish the value of the inventory management
system and increases the risk that the Postal Service could pay more than once or pay
for parts that it did not receive.

The San Francisco VMF performed and recorded physical vehicle parts inventories
for both owned and consigned parts. We compared the counts recorded for three
accounting periods. During those periods, the VMF counted owned parts with a value
of about $36,000 and consigned parts with a value of about $9,500. For all three
periods, differences of $1,850 existed between the two physical counts used to update
the two systems. In addition, differences of about $3,200 existed between the physical
counts and the amounts recorded in VMAS. However, these differences were not
reconciled, and VMAS was not updated to reflect the accurate numbers of parts.



5
  Fiscal Year 2002 Postal Service Financial Statement Audit San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-03-006, dated January 23, 2003).
6
  Vehicle Maintenance Bulletin V-04-03, Mandatory (Interim) Physical Inventories, dated January 2, 2003.
7
  Accounting for Bulk Fuel Inventories at the San Bernardino Vehicle Maintenance Facility (Report
Number FT-AR-03-005, dated January 23, 2003).
8
  Requirements to account for vehicle parts are included in Handbook PO-701, Fleet Management, and Vehicle
Maintenance Bulletin V-04-03, Mandatory (Interim) Physical Inventories, dated January 2, 2003.



                                                       3
Accountability at the San Francisco                                   FT-AR-05-008
 Vehicle Maintenance Facility


Additionally, our independent counts of 15 different types of vehicle parts identified
five differences with the parts recorded in VMAS. Further, our counts found a sixth
instance where VMAS indicated parts valued at $85 were owned by the Postal Service,
while the consignment vendor’s inventory accounting system indicated the parts were
held on consignment.

Recommendation

We recommend the Program Manager, Pacific Area Vehicle Maintenance Facilities:

1. Require personnel at the San Francisco Vehicle Maintenance Facility to conduct
   counts of vehicle parts in accordance with the Postal Service procedures, to include
   the proper way of investigating and resolving identified differences.

Management’s Comments

Management agreed with the recommendation and implemented several actions to help
ensure VMF personnel better control and account for its vehicle parts inventory. For
example, the VMF manager now reviews all interim inventory activities to ensure the
counts are accurately performed, the difference report is complete, and the actual
adjustments to on hand quantities are made. Additionally, a comprehensive physical
inventory of both owned and consigned vehicle parts will be completed by March 2005.
Management’s comments, in their entirety, are included in the appendix of this report.

Recommendation

We recommend the Program Manager, Pacific Area Vehicle Maintenance Facilities:

2. Provide training to San Francisco Vehicle Maintenance Facility personnel on how to
   control inventories, conduct proper counts of parts, and investigate and reconcile
   differences.

Management’s Comments

Management agreed with the recommendation and noted that training on the
consignment system was completed in November 2003. In addition, VMF personnel will
complete additional training on applicable inventory control policies and procedures by
August 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2, and actions
taken and planned should correct the issues identified in the finding.




                                           4
Accountability at the San Francisco                                                           FT-AR-05-008
 Vehicle Maintenance Facility


Accounting for Bulk Fuel and Oil Inventories

The San Francisco VMF did not fully account for fuel and oil inventories.9 Specifically:

•   The VMF did not properly perform daily and monthly fuel inventory reconciliations.

•   Only about one-third of the VMF-measured bulk oil at its auxiliary facility was
    recorded in the VMAS oil inventory.

This occurred because San Francisco VMF personnel did not follow Postal Service
guidance for recording and reconciling accounting records for fuel and oil inventories.10
As a result, there was no assurance that bulk fuel and oil managed by the facility were
used appropriately, or that the inventory accounting system properly reflected the
available fuel and oil on hand.

The San Francisco VMF recorded diesel fuel usage every day using the fuel pump
meters and Veeder-Root systems. In addition, the TRAK system in place at the
San Francisco VMF automatically recorded, by vehicle, daily diesel fuel amounts
pumped. The TRAK system also sums the daily amounts pumped. The VMF
compared the daily diesel fuel usage amounts recorded on the fuel pump meters to
daily diesel fuel usage amounts recorded in the Veeder-Root system. Although
differences existed, the VMF did not investigate the nature of the differences. Rather,
twice weekly, the VMF simply adjusted VMAS to reflect the amounts recorded by the
TRAK system. At the end of the month, the VMF adjusted VMAS to reflect the amount
measured by the Veeder-Root system. However, the VMF did not compare diesel fuel
usage information recorded on the TRAK system to either the pump meters or the
Veeder-Root system.

Bulk oil was held in two tanks at the San Francisco VMF and in drums at its auxiliary
facility in San Mateo, California. The San Francisco VMF recorded all bulk oil in VMAS
in one tank. In order to update VMAS, the VMF totaled the amounts measured from its
two tanks with the amounts it recorded from the San Mateo auxiliary facility at the end of
each month. An adjustment was made to VMAS to record the difference between the
totaled amounts and the amount recorded in VMAS. For the three months tested, the
San Mateo auxiliary VMF reported 3,504 quarts of bulk oil, yet the San Francisco VMF
only added 1,198 of these quarts when updating VMAS for the amounts measured.
San Francisco VMF personnel could not explain why incorrect amounts were added to
determine the total amounts measured.



9
  During FY 2004, the San Francisco VMF purchased approximately $1 million in diesel fuel and bulk oil for both itself
and the auxiliary VMF in San Mateo, California.
10
   Underground storage tank management and fuel inventory procedures are included in Vehicle Maintenance
Bulletin V-03-01, Underground Storage Tanks, dated January 29, 2001, and Postal Service Handbook PO-701, Fleet
Management, dated March 1991.



                                                          5
Accountability at the San Francisco                                                          FT-AR-05-008
 Vehicle Maintenance Facility


Recommendation

We recommend the Program Manager, Pacific Area Vehicle Maintenance Facilities:

3. Require personnel at the San Francisco Vehicle Maintenance Facility to perform
   reconciliations of bulk fuel and oil in accordance with Postal Service procedures.
   This would include: (1) comparing diesel fuel amounts used and recorded daily
   among the pump meters, TRAK, and Veeder-Root systems, (2) investigating and
   resolving discrepancies, and (3) recording adjustments.

Management’s Comments

Management agreed with our recommendation and implemented several actions to help
ensure VMF personnel perform reconciliations of bulk fuel and oil in accordance with
Postal Service procedures. For example, each accounting period, the VMF manager
reviews the adjustment histories of the tanks holding bulk fuel and oil and ensures the
completeness and accuracy of the tank volumes. Further, management replied that all
but one master key for fueling will be deactivated. The accountability for this active key
will be maintained by the stock room and will be available via a checkout log.
Completion is expected by March 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation, and actions taken
and planned should correct the issues identified in the finding.

Accounting for Postal Service Vehicles

The San Francisco VMF had responsibility for over 2,300 vehicles at the facilities it
supported. Though the VMF coordinated the annual counts of vehicles at those
facilities, VMF personnel did not reconcile the information with the VMAS listings or take
actions when discrepancies existed. This occurred because San Francisco VMF
personnel were not aware of the requirements of Vehicle Maintenance Bulletin V-05-97.
As a result, the San Francisco VMF cannot determine the disposition of one of its
vehicles nor attest to the accuracy of its vehicle accounting records.

Postal Service procedures require an annual physical inventory of vehicles.11 The
VMFs provide each facility they support with a printout of active and stored vehicles
assigned to them. The facilities are required to note all discrepancies on the printouts
and send them back to the VMFs. The VMFs then must document any adjustments and
provide the results to the San Mateo IT/ASCs motor vehicle accounting section.




11
     Vehicle Maintenance Bulletin V-05-97, Resumption of Annual Vehicle Inventory, dated January 16, 1997.



                                                          6
Accountability at the San Francisco                                     FT-AR-05-008
 Vehicle Maintenance Facility


The San Francisco VMF provided printouts listing the vehicles assigned to the facilities
it supported. The facilities annotated discrepancies on the printouts and sent the results
back to the San Francisco VMF. Rather than performing a reconciliation for noted
discrepancies, the San Francisco VMF filed the documents without further investigation.

We also attempted to verify the existence of 7 of the 83 vehicles assigned to the
San Francisco VMF; however, we were unable to locate one vehicle valued at about
$8,800. San Francisco VMF records showed the vehicle was authorized for sale in
June 2001. However, the VMF’s records did not document the sale or other outcome.
In addition, VMF personnel were unable to provide information regarding its disposition.
As a result, VMAS was not accurate and up-to-date for vehicles for which the
San Francisco VMF was responsible.

Recommendation

We recommend the Program Manager, Pacific Area Vehicle Maintenance Facilities:

4. Provide training to San Francisco Vehicle Maintenance Facility personnel regarding
   Postal Service policies on accounting for vehicles. The training should address
   following up on discrepancies identified during physical inventories of vehicles,
   notifying the Inspection Service and the area vehicle maintenance program analyst
   of missing vehicles, documenting adjustments, and providing the results to the
   San Mateo Information Technology and Accounting Service Center.

Management’s Comments

Management agreed with our recommendations and stated that the FY 2003 vehicle
inventory was not accurate because the system used to track vehicle movement failed.
Management added that actions taken prior to and during the audit produced
significantly improved results for the FY 2004 vehicle inventory, resulting in only
two unaccounted vehicles. Management initiated action to report these vehicles.

To ensure consistent and accurate VMAS updates, the VMF plans to develop a best
management practice for an internal vehicle transfer and correction system. Further,
the VMF plans to flowchart and locally train all administrative staff on vehicle inventory
procedures, with emphasis placed on the best management practice. Completion of all
corrective actions is expected by March 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation, and actions taken
and planned should correct the issues identified in the finding.




                                             7
Accountability at the San Francisco                                      FT-AR-05-008
 Vehicle Maintenance Facility


Based on the results of our testing, controls were in place and functioning at the
other three facilities. Consequently, we believe that this issue is specific to the
San Francisco, California, VMF.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact John E. Cihota,
Director, Financial Statements, or me at (703) 248-2300.


/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

cc: William P. Galligan
    Stephen J. Nickerson
    Leon L. Robinson
    Margaret A. Weir
    Steven R. Phelps




                                             8
Accountability at the San Francisco                       FT-AR-05-008
 Vehicle Maintenance Facility


                                  APPENDIX. MANAGEMENT’S COMMENTS




                                           9
Accountability at the San Francisco        FT-AR-05-008
 Vehicle Maintenance Facility




                                      10
Accountability at the San Francisco        FT-AR-05-008
 Vehicle Maintenance Facility




                                      11
Accountability at the San Francisco        FT-AR-05-008
 Vehicle Maintenance Facility




                                      12
Accountability at the San Francisco        FT-AR-05-008
 Vehicle Maintenance Facility




                                      13
